No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

KEESHA ELAYNE FRYE,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
-------------------------- ♦ --------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

Douglas E. Kingsbery
Counsel of Record
THARRINGTON SMITH, L.L.P.
150 Fayetteville Street, Suite 1800
Raleigh, North Carolina 27601
(919) 821-4711 (Telephone)
(919) 829-1583 (Facsimile)
dek@tharringtonsmith.com
Counsel for Petitioner

Dated: October 7, 2019

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTIONS PRESENTED
During a federal criminal jury trial, the district
court sent a copy of the indictment to the jury room
for the jury’s use in its deliberations and the
completion of its verdict sheet. The district court
intended for the courtroom clerk to give the jury a
heavily redacted version of the indictment because
the original indictment contained several allegations
that the government agreed would have been
prejudicial to the jury’s consideration of the
defendant’s case.
After the jury’s verdict was received and the
jury was discharged, the courtroom clerk destroyed
the indictment she had given to the jury, and no copy
was made or retained by the district court.
The Fourth Circuit Court of Appeals rejected
defendant’s claim that the clerk’s actions deprived her
of meaningful appellate review, holding that the
burden was on defendant to show that the clerk had
submitted the wrong version of the indictment to the
jury.
The Question Presented is:
What is the correct standard to determine
whether a criminal defendant is denied meaningful
appellate review when the district court destroys the
only copy of a redacted indictment used by the jury in
its deliberations, and who’s burden is it to show
whether the jury was given the correct version of the
indictment?

ii
RELATED CASES
x

United States v. Frye, No. 1:17-cr-00115-WO-1,
U.S. District Court for the Middle District of
North Carolina. Judgment entered May 23,
2018.

x

United States v. Frye, No. 18-4346, U.S. Court
of Appeals for the Fourth District. Judgment
entered May 20, 2019.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
RELATED CASES ...................................................... ii
TABLE OF CONTENTS............................................iii
TABLE OF AUTHORITIES ....................................... v
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL PROVISIONS INVOLVED ..... 1
STATEMENT OF THE CASE ................................... 2
REASONS FOR GRANTING THE WRIT ................. 8
1.

No Proper Standard Exists to
Govern the Facts of This Case .............. 8

2.

The Fourth Circuit’s Opinion is
Incorrect, and Ms. Frye was
Denied Meaningful Appellate
Review.................................................. 10

CONCLUSION ......................................................... 11
APPENDIX:
Unpublished Opinion and Judgment of
The United States Court of Appeals
for the Fourth Circuit
entered May 20, 2019 .......................... 1a

iv
Judgment of
The United States District Court
for the Middle District of North Carolina
entered May 23, 2018 .......................... 8a
Order of
The United States Court of Appeals
for the Fourth Circuit
Re: Denying Petition for Rehearing
entered July 8, 2019 .......................... 22a

v
TABLE OF AUTHORITIES
Page(s)
CASES
United States v. Barnes,
747 F.2d 246 (4th Cir. 1984) ............................ 9
United States v. Greene,
834 F.2d 86 (4th Cir. 1987) .............................. 9
United States v. Huggins,
191 F.3d 532 (4th Cir. 1999) ............................ 8
United States v. Polowichak,
783 F.2d 410 (4th Cir. 1986) .......................... 10
United States v. Weisser,
417 F.3d 336 (2d Cir. 2005) ............................. 8
CONSTITUTIONAL PROVISION
U.S. CONST. amend. V .......................................... 1-2, 9
STATUTE
28 U.S.C. § 1254.......................................................... 1

1
PETITION FOR WRIT OF CERTIORARI
Keesha Frye, an inmate currently incarcerated
at Alderson Federal Prison Camp, by and through
counsel, respectfully petitions this court for a writ of
certiorari to review the judgment of the Fourth
Circuit Court of Appeals.
OPINIONS BELOW
The opinion of the Fourth Circuit Court of
Appeals appears at App. 1a-6a to this petition. The
court’s opinion is unpublished. See United States v.
Frye, 770 F. App’x 137 (4th Cir. 2019). On July 8,
2019, the Fourth Circuit Court of Appeals denied Ms.
Frye’s petition for rehearing. That Order is also
included in the appendix at App. 22a.
JURISDICTION
This petition seeks review of a judgment of the
United States Court of Appeals for the Fourth Circuit
entered on May 20, 2019. Ms. Frye’s petition for
rehearing to the Fourth Circuit Court of Appeals was
denied on July 8, 2019. Ms. Frye invokes this Court’s
jurisdiction under 28 U.S.C. § 1254.
CONSTITUTIONAL PROVISIONS INVOLVED
United States Constitution, Amendment V:
No person shall be held to answer
for a capital, or otherwise infamous
crime, unless on a presentment or
indictment of a Grand Jury, except in
cases arising in the land or naval forces,
or in the Militia, when in actual service
in time of War or public danger; nor shall

2
any person be subject for the same
offense to be put twice in jeopardy of life
or limb; nor shall be compelled in any
criminal case to be a witness against
himself, nor be deprived of life, liberty,
or property, without due process of law;
nor shall private property be taken for
public use, without just compensation.
STATEMENT OF THE CASE
Ms. Frye was convicted by a jury in the Middle
District of North Carolina on January 12, 2018, with
crimes relating to her ownership and operation of an
income tax preparation business located in Durham,
North Carolina known as KEF Professional Services,
LLC (“LLC”). A grand jury had previously returned a
35-count superseding indictment against Ms. Frye
and Maria Streater, an office manager at KEF.
The Superseding Indictment alleged that Ms.
Frye had conspired with Ms. Streater and others to
defraud the United States by impeding the lawful
governmental function of the IRS in the assessment
and collection of federal income taxes (count 1), aiding
and abetting the preparation and filing of false
income tax returns (counts 2-21) and filing her own
false individual income tax returns (counts 33 and 34)
(hereinafter, “the indictment”). (JA at 14) Several of
the thirty-one (31) overt acts charged in the
conspiracy count (count 1), as well as counts 22-31, 32
and 35 of the indictment, pertained solely to Streater.
Streater entered a plea of guilty to certain of
the charges against her, and the case proceeded to
trial solely against Ms. Frye. Streater did not testify
at the trial.

3
Prior to jury selection, the government moved
to dismiss counts 12, 13, 14 and 16, each of which
pertained solely to Ms. Frye. Without objection, the
district court granted the motion. (CA JA at 8; Dkt.
Entry 01/08/2018) Ms. Frye entered a plea of not
guilty to all the remaining counts that pertained to
her.
At the close of the trial, the district court
instructed the courtroom clerk to send the following
items to the jury room for the jury’s use in
deliberations: (1) the trial exhibits, (2) a copy of the
jury instructions, (3) the verdict sheet, and (4) a
redacted copy of the indictment. During the course
of the trial, the district court had prepared several
versions of a redacted indictment, all of which
contained prejudicial allegations against Ms. Frye,
except for the last version, which was the version the
district court intended for the courtroom clerk to give
to the jury.
The district court, counsel for the government
and counsel for Ms. Frye all agreed that the
indictment needed to be redacted for the following
reasons:
(1)
Prior to jury selection, counts 12, 13, 14
and 16 of the indictment had been dismissed. (JA at
8; Dkt. Entry 01/08/2018)
(2)
At the close of the government’s
evidence, the district court noted that no evidence had
been presented to support several of the overt acts
alleged in count 1. (JA at 408-09)
(3)
At the close of all the evidence, the
government volunteered that it had not presented

4
any evidence on one of the two false statements
alleged in count 34. (JA at 545-46)1
(4)
Counts 14-31, 32 and 35 of the
indictment pertained solely to Streater, who was not
on trial. (JA at 24-29)
Notably, the Government has conceded in this
case that if an unredacted version of the indictment
was given to the jury, Ms. Frye would have been
prejudiced. (See Govt’s Response Brief at 23.)
The verdict sheet did not identify the specific
offenses as to which the jury was to render its
verdicts. Instead, the district court instructed the
jury to use the (modified) indictment and then decide
whether Frye was guilty or not guilty “of the crime
charged in (each numbered count as listed in the
indictment).” (JA at 727-32) The verdict sheet and
the indictment were designed to be read together,
since one cannot decipher the verdict sheet without
the indictment to which each verdict refers.
According to the verdict sheet, the jury found
Frye “not guilty” “of the crime charged in count five of
the (modified) indictment,” and “guilty” of the other
counts. Id.
Count 34 alleged that Frye made two false statements on her
2012 individual income tax return. (JA 27-28) In its response
brief, the government conceded that one of those false
statements was not proven and should have been redacted on
the copy of the indictment submitted to the jury. (Govt.’s Brief,
p. 23) If the version of the indictment given to the jury was not
correctly redacted, even a cautionary instruction that the
indictment is not evidence of guilt cannot remedy the error of
allowing the jury to convict on a false statement that was not
proven.
1

5
After the jury was discharged, the courtroom
clerk filed into the record the jury’s verdict sheet (JA
at 8, Dkt. #77) and the final jury instructions the jury
had used in its deliberations. (JA at 8, Dkt. #76) The
court did not, however file the modified indictment
upon which the verdict sheet was based.
On 23 May 2018 the district court entered
Judgment, sentencing Frye to 49 months on count 1,
36 months on count 33 to run consecutively to the
sentence imposed in count 1, and 36 months on count
34 to run consecutively to the sentence imposed in
count 33, for a total of 121 months active
imprisonment. The court consolidated the remaining
counts and imposed a sentence of 36 months to run
concurrently with the sentences imposed in the other
counts.2 (JA at 734).
On appeal, the courtroom clerk advised
appellate counsel that she had destroyed the version
of the indictment the jury used in its deliberations,
and that the district court had not retained a copy.
Ms. Frye appealed her conviction to the Fourth
Circuit Court of Appeals, arguing that destruction of
the document used by the jury denied Frye of
meaningful appellate review of the jury instructions,
the verdict sheet, and issues related to the document
itself.
After Ms. Frye had filed her opening brief in
the Fourth Circuit—and eight (8) months after the
jury was discharged—the courtroom clerk notified
Here, “counts” refers to the counts in the Superseding
Indictment returned by the grand jury, not the “modified”
indictment used by the petit jury.

2

6
counsel for the government and Ms. Frye that the
district court had located “a copy of the redacted
superseding indictment.” The communication gave
no indication of whether the document purported to
be a copy of the document that was sent to the jury
room.
Prior to filing its response brief, the
government filed a motion in the district court to
supplement the record with the late-found document.
(Dist. Ct. DE# 110) Counsel for Frye filed a response
seeking clarification of whether the document was in
fact a copy of what had been sent into the jury room.
(Dist. Ct. DE# 111 and 111-1)
The district court then scheduled a hearing
regarding the government’s motion to supplement the
record. In the hearing, the district court explained
that the document was recently found by the court’s
judicial assistant amongst her miscellaneous papers
and files. (SA 2, 20-21). The district court opined as
follows:
But in any event, my judicial
assistant, Francis Cable, has some other
papers on her desk where she keeps an
assortment of papers that actually has
the original Wite-out from where she
redacted the indictment. Under those
circumstances, I am---I’m going to put it
at the 80 percent mark—80 to 90 percent
satisfied that this is the original
indictment that was redacted and the
one from which copies were made to send
back to the jury.
(SA 21)

7
In a written order granting the government’s
motion to supplement the record, the court stated the
document “appears to [the] court to be a copy of either
the final redacted version of the Superseding
Indictment submitted to the jury or a very close
approximation thereof.” (SA 2)
The government then filed its response brief,
arguing that the late-found document must be a copy
of what was sent to the jury room because the
redactions in it are consistent with the redactions
discussed in the trial transcripts, the government’s
closing argument, and the verdict sheet.3
On May 20, 2019, the Fourth Circuit Court of
Appeals issued its decision affirming the decision of
the district court. In that decision, the Fourth Circuit
concluded that “based on the totality of the
circumstances” the version of the indictment located
by the district court during the pendency of the appeal
was “very likely the version given to the jury.” United
States v. Frye, 770 F. App’x at 138. The Court also
found that Ms. Frye had “offered nothing but
speculation that a different copy of the indictment
could have been submitted.” Id. Ms. Frye petitioned
for rehearing arguing that the standard of review that
the Fourth Circuit had set was impossible for any
criminal defendant to meet. Ms. Frye’s petition was
denied by the Court on July 8, 2019.

Of course, the most the district court could say about the latefound document is that it is a copy of what the district court
intended the courtroom clerk to give to the jury.

3

8
REASONS FOR GRANTING THE WRIT
1.

No Proper Standard Exists to Govern the
Facts of This Case.

Neither this Court, nor any Circuit Court,
based on undersigned counsel’s review, has developed
a standard to address when a criminal defendant is
denied meaningful appellate review based on the
failure of the district court to preserve for the record
a key charging document that was submitted to the
jury for its use in deliberating the case.
While it is true that the Courts of Appeal have
developed a standard to govern instances of missing
or inaccurate trial transcripts, see, e.g., United States
v. Weisser, 417 F.3d 336, 342 (2d Cir. 2005), the
Courts have developed no such standard for missing
documents utilized by the jury in rendering a guilty
verdict.
This case presents an ideal vehicle for this
Court to announce a proper standard.
The Fourth Circuit, in its opinion below, held
that Ms. Frye had the burden of demonstrating that
a prejudicial version of the indictment was sent to the
jury. “Frye has offered nothing but speculation that
a different copy of the indictment could have been
submitted. We therefore conclude that Frye has not
shown that she has been denied meaningful appellate
review.” 770 F. App’x at 138. In reaching this holding,
the Court cited a prior Fourth Circuit case involving
an omission from a trial transcript. Id. (citing United
States v. Huggins, 191 F.3d 532, 536 (4th Cir. 1999)
(“[W]hether an omission from a transcript warrants a
new trial depends on whether the appellant has

9
demonstrated that the omission specifically
prejudices [her] appeal.” (internal quotation marks
omitted)).
The Fourth Circuit’s reasoning is
tautological. Ms. Frye’s argument is that because the
district court failed to maintain the copy of the
indictment sent to the jury, she is denied the
opportunity on appeal to determine whether she was
prejudiced by that document. Ms. Frye cannot be
expected to produce evidence that was destroyed by
the district court. The standard developed by the
Circuit Courts to address instances of missing or
inaccurate trial transcripts is inadequate to address
the facts of Ms. Frye’s claim for denial of meaningful
appellate review.
The Fourth Circuit also held that the version of
the indictment located by the district court during the
pendency of the appeal was “very likely the version
given to the jury.” United States v. Frye, 770 F. App’x
at 138. As stated above, the Government has
conceded that an improperly redacted indictment
would have been prejudicial to Ms. Frye. A holding
that Ms. Frye was “very likely” not prejudiced, and
that therefore she has failed to show prejudicial error,
cannot comport with the requirements of due process
under the Fifth Amendment.4
Moreover, as noted above, the most anyone could say about the
late-found version of the redacted indictment is that it is the
version the district court intended for the courtroom clerk to give
to the jury. Because there were at least four (4) different versions
of the indictment in the courtroom during the trial, the
courtroom clerk could easily have submitted one of the improper
versions by mistake. See, e.g., United States v. Barnes, 747 F.2d
246 (4th Cir. 1984) (courtroom clerk sent wrong exhibits to the
jury room) and United States v. Greene, 834 F.2d 86 (4th Cir.
1987) (same).
4

10
This Court should grant certiorari to develop a
standard to decide whether a criminal defendant is
denied meaningful appellate review when key
charging documents utilized by the jury in reaching
its verdict are not maintained by the district court.
2.

The Fourth Circuit’s Opinion is Incorrect,
and Ms. Frye was Denied Meaningful
Appellate Review

As the government concedes, if the jury in this
case received an unredacted - or improperly redacted
- version of the superseding indictment, the error was
prejudicial. “If the indictment contains irrelevant
allegations, ordinarily they should be redacted.”
United States v. Polowichak, 783 F.2d 410, 413 (4th
Cir. 1986)5 Because the district court destroyed the
version of the superseding indictment that was sent
to the jury, Ms. Frye has been denied meaningful
appellate review.

While the chance of prejudice can be reduced where “the jury
is unequivocally instructed that the indictment is not evidence,
that the indictment is distributed solely as an aid in following
the court’s instructions and the arguments of counsel, and that
certain counts should be disregarded as irrelevant to the
defendants currently before the district court,” i.d., that was not
done here. The jury instructions in this case fill 25 pages of
transcript. In those 25 pages, the court did say – one time – that
the indictment is not evidence of guilt. (JA 601) The court did
not say that the indictment was not evidence and did not state
the limited purpose of the indictment or instruct the jury
disregard the dismissed counts against Ms. Frye, or the counts
and allegations that related to Streater.
5

11
CONCLUSION
The Circuit Courts need an authoritative
standard of review to apply in determining whether
the post-verdict destruction of critical items that were
submitted to the jury for use in its deliberations
denies a criminal defendant of meaningful appellate
review. This Court should grant the petition for
certiorari to develop and announce that standard.
Respectfully submitted,
Douglas E. Kingsbery
Counsel of Record
THARRINGTON SMITH, L.L.P.
150 Fayetteville Street, Suite 1800
Raleigh, North Carolina 27601
(919) 821-4711 (Telephone)
(919) 829-1583 (Facsimile)
dek@tharringtonsmith.com

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Unpublished Opinion and Judgment of
The United States Court of Appeals
for the Fourth Circuit
entered May 20, 2019...................................... 1a
Judgment of
The United States District Court
for the Middle District of North Carolina
entered May 23, 2018..................................... 8a
Order of
The United States Court of Appeals
for the Fourth Circuit
Re: Denying Petition for Rehearing
entered July 8, 2019..................................... 22a

1a
[ENTERED: May 20, 2019]
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4346
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
KEESHA ELAYNE FRYE,
Defendant - Appellant.
Appeal from the United States District Court for the
Middle District of North Carolina, at Greensboro.
William L. Osteen, Jr., District Judge. (1:17-cr-00115WO-1)
Submitted: March 28, 2019

Decided: May 20, 2019

Before WILKINSON, DIAZ, and RICHARDSON,
Circuit Judges.
Affirmed by unpublished per curiam opinion.

2a
Douglas E. Kingsbery, THARRINGTON SMITH LLP,
Raleigh, North Carolina, for Appellant. Richard E.
Zuckerman, Principal Deputy Assistant Attorney
General, S. Robert Lyons, Stanley J. Okula, Jr.,
Alexander P. Robbins, Gregory S. Knapp, Tax
Division, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C.; Matthew G.T. Martin,
United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Greensboro, North Carolina,
for Appellee.
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Keesha Elayne Frye appeals her convictions for
conspiracy to defraud the United States, in violation
of 18 U.S.C. § 371 (Count 1), aiding and assisting in
preparing false tax returns, in violation of 26 U.S.C.
§ 7206(2) (Counts 2-4, 6-11, 15, and 17-21), and
subscribing to false tax returns, in violation of 26
U.S.C. § 7206(1) (Counts 33 and 34). Frye contends
that she has been denied the right to meaningful
appellate review and that the evidence was
insufficient to convict her of Counts 33 and 34. We
affirm.
Frye contends that she has been denied
meaningful appellate review because all copies of the
redacted indictment given to the jury were destroyed.
Because of this omission, Frye argues that it is
impossible to decipher the jury’s verdict form, to
review the district court’s jury instructions, and to

3a
determine whether the indictment was constructively
amended in violation of her Fifth Amendment rights.
The district court, however, subsequently
located a copy of a redacted indictment. In a written
order, the court found that this indictment “appears
to this court to be a copy of either the final redacted
version of the Superseding Indictment submitted to
the jury or a very close approximation thereof.”
Suppl. App’x at 2. The court wrote that it “believe[d]”
the document was a copy of the indictment submitted
to the jury. Id. And it stated several times during a
hearing that the document was very probably the one
that the jury saw. Id. at 21 (“I am . . . 80 to 90 percent
satisfied that this is the original indictment that was
redacted and the one from which copies were made to
send back to the jury.”); id. at 30 (“I’m 99 per cent
certain it’s very close, if not identical, to what went
back, but it wasn’t found under circumstances where
I can say 100 percent certainty. Is it 90 percent, 80
percent? I don’t know. I’m confident. Am I fully
satisfied and entirely convinced? Probably, but I’d
rather have to judge it on a reasonable doubt
standard.”).
Based on the totality of the circumstances, we
conclude that this version was very likely the version
given to the jury. We note that the unearthed
indictment reflects amendments made just before
closing arguments. Further, we believe deference is
due to the district court’s statements regarding its
confidence that this indictment reflects the one
submitted to the jury. To support her claim that
review is impossible, however, Frye has offered
nothing but speculation that a different copy of the
indictment could have been submitted. We therefore

4a
conclude that Frye has not shown that she has been
denied meaningful appellate review. See United
States v. Huggins, 191 F.3d 532, 536 (4th Cir. 1999)
(“[W]hether an omission from a transcript warrants a
new trial depends on whether the appellant has
demonstrated that the omission specifically
prejudices [her] appeal.” (internal quotation marks
omitted)).
Next, we review de novo the sufficiency of the
evidence supporting a conviction. United States v.
Wolf, 860 F.3d 175, 194 (4th Cir. 2017). A defendant
challenging evidentiary sufficiency carries “a heavy
burden.” United States v. Cornell, 780 F.3d 616, 630
(4th Cir. 2015) (internal quotation marks omitted).
We will uphold a conviction if, “view[ing] the evidence
in the light most favorable to the government . . . [,]
any rational trier of fact could have found the
essential elements of the crime charged beyond a
reasonable doubt.” United States v. Barefoot, 754 F.3d
226, 233 (4th Cir. 2014) (emphasis and internal
quotation marks omitted).
Frye contends that the evidence was
insufficient to convict her of Count 33 because the
government showed, at most, that the name of the
childcare provider on her 2010 tax return was
incorrect, and that this is not a material falsehood
because Frye had child and dependent care expenses
incurred from another provider.
We conclude,
however, that a rational juror could have found Frye
guilty of Count 33 beyond a reasonable doubt. A
“defendant’s credibility is a material consideration in
establishing guilt, and if a defendant takes the stand
and denies the charges and the jury thinks [s]he’s a
liar, this becomes evidence of guilt to add to the other

5a
evidence.” United States v. Burgos, 94 F.3d 849, 868
(4th Cir. 1996) (en banc) (brackets, ellipsis, and
internal quotation marks omitted). Here, the jury
was free to disbelieve Frye’s testimony in light of the
extensive evidence of Frye’s fraudulent conduct in
other matters presented at trial. Thus, this claim is
without merit.
Frye also contends that the evidence was
insufficient to convict her of Count 34 because the
government failed to show that Frye personally
signed her 2012 tax return before it was filed. Frye
first argues that the mere entry of Frye’s personal
identification number (PIN) is insufficient to show
that she signed her return because Form 8879, the
form authorizing e-filing, was unsigned. But we
believe a rational juror could conclude that the
presence of Frye’s PIN, a unique identifier, on her
return was sufficient to show that Frye signed her
return. Frye further argues that the evidence was
insufficient to convict her of Count 34 because her tax
preparer signed Frye’s return, not Frye. Frye’s
explanation, proffered at trial, is plausible, and a
rational juror could have accepted this explanation.
Yet equally plausible is that Frye knowingly
participated in the fraud and signed her tax return
with her PIN. Ultimately, “it was the responsibility of
the jury to weigh the evidence and determine which
version to believe.” United States v. Stockton, 349
F.3d 755, 761 (4th Cir. 2003). The jury here elected
to discredit Frye’s testimony on this point, and we are
bound to accept that decision. See United States v Roe,
606 F.3d 180, 186 (4th Cir. 2010).
Accordingly, we affirm the judgment of the
district court. We dispense with oral argument

6a
because the facts and legal contentions are
adequately presented in the materials before this
court and argument would not aid the decisional
process.
AFFIRMED

7a
[ENTERED: May 20, 2019]
FILED: May 20, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4346
(1:17-cr-00115-WO-1)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
KEESHA ELAYNE FRYE
Defendant – Appellant
JUDGMENT
In accordance with the decision of this court,
the judgment of the district court is affirmed.
This judgment shall take effect upon issuance
of this court’s mandate in accordance with Fed. R.
App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

8a
[ENTERED: May 23, 2018]
AO 245B (NCMD Rev. 02/18) Sheet 1 –
Judgment in a Criminal Case
United States District Court
Middle District of North Carolina
UNITED STATES OF AMERICA
v.
KEESHA ELAYNE FRYE
JUDGMENT IN A CRIMINAL CASE
Case Number: 1:17-CR-00115-1
USM Number: 33826-057
Mark Everette Edwards
Defendant’s Attorney
THE DEFENDANT:
 pleaded guilty to count(s)
pleaded nolo contendere to count(s) __ which was
accepted by the court.
7was found guilty on counts 1s-4s, 6s-11s, 15s, 17s21s & 33s-34s after a plea of not guilty.
The defendant is adjudicated guilty of these
offenses:

9a
Title &
Section
18:371

Nature of
Offense
Conspiracy

Offense
Ended

Count

03/24/2014

1s

26:7206(2) Aid and Assist in 03/24/2014 2s-4s, 6sFiling False Tax
11s, 15s,
Returns
17s-21s
26:7206(1) Subscribe to
False Tax
Returns

04/11/2011

33s

26:7206(1) Subscribe to
False Tax
Returns

05/06/2013

34s

The defendant is sentenced as provided in
pages 2 through 7 of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of
1984.
7 The defendant has been found not guilty on count
5s.
7 Counts 1-21, 33-34 of the Original Indictment filed
on 03/28/2017 and Counts 12s-14s, 16s of the
Superseding Indictment filed on 6/27/2017 are
dismissed on the motion of the United States.
IT IS ORDERED that the defendant shall
notify the United States Attorney for this district
within 30 days of any change of name, residence, or
mailing address until all fines, restitution, costs, and
special assessments imposed by this judgment are
fully paid. If ordered to pay restitution, the defendant
shall notify the court and United States attorney of
any material change in the economic circumstances.

10a
April 11, 2018
Date of Imposition of Judgment
/s/ William L. Osteen, Jr.
Signature of Judge
William L. Osteen, Jr., United States District Judge
Name & Title of Judge
MAY 23 2018
Date
DEFENDANT:

KEESHA ELAYNE FRYE

CASE NUMBER: 1:17-CR-00115-1
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of: 121 months.
[49 months as to count 1s; 36 months each as
to counts 33s and 34s which shall run
consecutively with the sentence imposed as to
count 1s; 36 months as to the remaining counts,
that is, counts 2s-4s, 6s-11s, 15s, and 17s-21s
which shall run concurrently with the
sentences imposed as to counts 1s, 33s and 34s]
7 The court makes the following recommendations
to the Bureau of Prisons: that the defendant be
designated to a facility as close to her home in
Durham, North Carolina, as possible and further that
she be designated to a facility where she may receive
medical care as reasonably necessary under the
circumstances.

11a
 The defendant is remanded to the custody of the
United States Marshal.
7 The defendant shall surrender to the United
States Marshal for this district or to the designated
institution
7 at 12:00 p.m. on June 6, 2018.
 as notified by the United States Marshal.
 The defendant shall surrender for service of
sentence at the institution designated by the Bureau
of Prisons:
 before 2 pm on .
 as notified by the United States Marshal.
 as notified by the Probation or Pretrial
Services Office.
RETURN
I have executed this judgment as follows:
Defendant delivered on __________________ to
___________________________ at __________________,
with a certified copy of this judgment.
UNITED STATES MARSHAL
BY

DEPUTY UNITED STATES MARSHAL

12a
DEFENDANT:

KEESHA ELAYNE FRYE

CASE NUMBER: 1:17-CR-00115-1
SUPERVISED RELEASE
Upon release from imprisonment, you will be on
supervised release for a term of: three (3) years.
[Three (3) years imposed as to count 1s; One (1)
year each as to counts 33s-34s which shall run
concurrently with the supervised release
imposed as to count 1s; One (1) year each as to
counts 2s-4s, 6s-11s, 15s, 17s-21s which shall run
concurrently]
MANDATORY CONDITIONS
1. You must not commit another federal, state or
local crime.
2. You must not unlawfully possess a controlled
substance
3. You must refrain from any unlawful use of a
controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.
 The above drug testing condition is
suspended
based
on
the
court’s
determination that the defendant poses a
low risk of future substance abuse. (Check,
if applicable.)
4.  You must make restitution in accordance with
18 U.S.C §§ 3663 and 3663A or any other statute

13a
authorizing a sentence of restitution. (check if
applicable)
5. 7 You must cooperate in the collection of DNA as
directed by the probation officer. (Check, if
applicable.)
6.  You must comply with the requirements of the
Sex Offender Registration and Notification Act (34
U.S.C § 20901, et seq.) as directed by the probation
officer, the Bureau of Prisons, or any state sex
offender registration agency in which you reside,
work, are a student, or were convicted of a
qualifying offense. (Check, if applicable.)
7.  You must participate in an approved program
for domestic violence. (Check, if applicable.)
You must comply with the standard conditions
that have been adopted by this court as well as
with any other conditions on the attached page.
DEFENDANT:

KEESHA ELAYNE FRYE

CASE NUMBER: 1:17-CR-00115-1
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed
by probation officers to keep informed, report to the
court about, and bring about improvements in your
conduct and condition.

14a
1.

You must report to the probation office in the
federal judicial district where you are
authorized to reside within 72 hours of your
release from imprisonment, unless the
probation officer instructs you to report to a
different probation office or within a different
time frame.

2.

After initially reporting to the probation office,
you will receive instructions from the court or
the probation officer about how and when you
must report to the probation officer, and you
must report to the probation officer as
instructed.

3.

You must not knowingly leave the federal
judicial district where you are authorized to
reside without first getting permission from
the court or the probation officer.

4.

You must answer truthfully the questions
asked by your probation officer.

5.

You must live at a place approved by the
probation officer. If you plan to change where
you live or anything about your living
arrangements (such as the people you live
with), you must notify the probation officer at
least 10 days before the change. If notifying the
probation officer in advance is not possible due
to unanticipated circumstances, you must
notify the probation officer within 72 hours of
becoming aware of a change or expected
change.

15a
6.

You must allow the probation officer to visit
you at any time at your home or elsewhere, and
you must permit the probation officer to take
any items prohibited by the conditions of your
supervision that he or she observes in plain
view.

7.

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless
the probation officer excuses you from doing so.
If you do not have full-time employment you
must try to find full-time employment, unless
the probation officer excuses you from doing so.
If you plan to change where you work or
anything about your work (such as your
position or your job responsibilities), you must
notify the probation officer at least 10 days
before the change. If notifying the probation
officer at least 10 days in advance is not
possible due to unanticipated circumstances,
you must notify the probation officer within 72
hours of becoming aware of a change or
expected change.

8.

You must not communicate or interact with
someone you know is engaged in criminal
activity. If you know someone has been
convicted of a felony, you must not knowingly
communicate or interact with that person
without first getting the permission of the
probation officer.

9.

If you are arrested or questioned by a law
enforcement officer, you must notify the
probation officer within 72 hours.

16a
10.

You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific
purpose of causing bodily injury or death to
another person such as nunchakus or tasers).

11.

You must not act or make any agreement with
a law enforcement agency to act as a
confidential human source or informant
without first getting the permission of the
court.

12.

If the probation officer determines that you
pose a risk to another person (including an
organization), the probation officer may
require you to notify the person about the risk
and you must comply with that instruction.
The probation officer may contact the person
and confirm that you have notified the person
about the risk.

13.

You must follow the instructions of the
probation officer related to the conditions of
supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s Signature

Date

17a
DEFENDANT:

KEESHA ELAYNE FRYE

CASE NUMBER: 1:17-CR-00115-1
SPECIAL CONDITIONS OF SUPERVISION
The defendant shall not incur any new credit charges
or open additional lines of credit without the approval
of the probation officer.
The defendant shall provide any requested financial
information to the probation officer.
DEFENDANT:

KEESHA ELAYNE FRYE

CASE NUMBER: 1:17-CR-00115-1
CRIMINAL MONETARY PENAL TIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS $1,800.00

JVTA
Fine Restitution
Assessment*
$.00 $1,742,823.00

 The determination of restitution is deferred until
. An Amended Judgment in a
Criminal Case (AO 245C) will be entered after
such determination.
 The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority

18a
order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.
 Restitution amount ordered pursuant to plea
agreement $
 The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the
fifteenth day after the date of the judgment,
pursuant to 18 U.S.C. § 3612(f). All of the payment
options on Sheet 6 may be subject to penalties for
delinquency and default, pursuant to 18 U.S.C.
§ 3612(g).
7 The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
7 the interest requirement is waived pursuant
to 18 U.S.C. Section 3612(f)(3) for the  fine
7 restitution. The defendant shall pay
interest, and that interest shall begin to
accrue after the completion of the term of
imprisonment and the term of supervised
release as to any restitution amounts that
remain unpaid after completion of the
term of supervised release
 the interest requirement for the
 restitution is modified as follows:

 fine

* Justice for Victims of Trafficking Act of 2015,
Pub. L. No. 114-22.

19a
** Findings for the total amount of losses are
required under Chapters 109A, 110, 110A, and
113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23,
1996.
DEFENDANT:

KEESHA ELAYNE FRYE

CASE NUMBER: 1:17-CR-00115-1
SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A 7 Lump sum payment of $ 1,744,623.00 due
immediately, balance due
 not later than __________, or
7 in accordance with  C, 7 D,  E, or  F
below; or
B  Payment to begin immediately (may be
combined with  C,  D, or  F below); or
C  Payment in equal ___ (e.g. weekly, monthly,
quarterly) installments of $ ____ over a period
of ___ (e.g., months or years), to commence (e.g.,
30 or 60 days) after the date of this judgment;
or
D 7 Payment in equal monthly installments of
$100.00, to begin 60 days after the
commencement of the term of supervised
release and continuing during the entire term
of supervised release or until paid in full; or

20a
E  Payment during the term of supervised release
will commence within ________ (e.g., 30 or 60
days) after release from imprisonment. The
court will set the payment plan based on an
assessment of the defendant’s ability to pay at
that time; or
F  Special instructions regarding the payment of
criminal monetary penalties:
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are to be made to the Clerk of Court, United
States District Court for the Middle District of North
Carolina, 324 West Market Street, Greensboro, NC
27401-2544, unless otherwise directed by the court,
the probation officer, or the United States Attorney.
Nothing herein shall prohibit the United States
Attorney
from
pursuing
collection
of
outstanding criminal monetary penalties.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
7 Joint and Several
Co-defendant Maria
Number: 1:17cr115-2

Nicole

Streater,

Case

 The defendant shall pay the cost of prosecution.

21a
 The defendant shall pay the following court
cost(s):
 The defendant shall forfeit the defendant’s
interest in the following property to the United
States:
Payments shall be applied In the following
order: (1) assessment; (2) restitution principal;
(3) restitution interest, (4) fine principal, (5)
fine interest, (6) community restitution, (7)
JVTA assessment, (8) penalties, and (9) costs,
including cost of prosecution and court costs.

22a
[ENTERED: July 8, 2019]
FILED: July 8, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4346
(1:17-cr-00115-WO-1)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
KEESHA ELAYNE FRYE
Defendant – Appellant
ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge
Wilkinson, Judge Diaz, and Judge Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

